Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 COMPARING SPECIAL NEEDS
PLAN BENEFICIARIES TO OTHER
   MEDICARE ADVANTAGE
  PRESCRIPTION DRUG PLAN
       BENEFICIARIES




                    Daniel R. Levinson
                     Inspector General

                      December 2008
                     OEI-05-07-00490
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
I N T R O D        U C T              I O N
Δ    E X E C U T I V E                                       S U M M A R Y


                    OBJECTIVE
                    To compare Special Needs Plan (SNP) beneficiaries to other Medicare
                    Advantage Prescription Drug Plan (MA-PD) beneficiaries regarding
                    drug utilization, drug costs, and exposure to potentially inappropriate
                    drug pairs.


                    BACKGROUND
                    Congress created the SNP authority to allow Medicare managed care,
                    known as Medicare Advantage (MA) plans, to develop targeted clinical
                    programs to care more effectively for high-risk beneficiaries. Among
                    other services, SNPs offer prescription drug coverage. Any MA plan
                    that offers Part D prescription drug coverage is known as an MA-PD.

                    Since SNPs became available in 2006, the number of SNPs and SNP
                    beneficiary enrollment have grown rapidly. Policymakers have focused
                    their attention on SNPs because of this growth and because SNPs, like
                    other MA plans, cost more per beneficiary than fee-for-service Medicare.
                    In particular, policymakers have questioned whether SNPs are
                    providing specialized care for special needs individuals.

                    Because SNPs target special needs individuals who are more likely to
                    have complicated medical regimens, SNP beneficiaries may have an
                    increased risk of exposure to therapeutic duplications or drug-drug
                    interactions. Therapeutic duplications occur when two drugs that treat
                    the same medical condition, taken together, increase the risk of toxicity.
                    Drug-drug interactions occur when two drugs taken together lead to
                    increased toxicity or changes in the efficacy of one or both drugs.

                    Therapeutic duplications and drug-drug interactions may be prescribed
                    or dispensed in error or may be part of a clinically appropriate drug
                    regimen. Regardless, they have the potential to lead to an adverse drug
                    event (ADE). An ADE may involve temporary or moderate side effects
                    or can have serious consequences, including disability or death.
                    Because therapeutic duplications and drug-drug interactions can lead to
                    ADEs they may require monitoring or a change in drug regimen.
                    Throughout the report, we refer to therapeutic duplications and
                    drug-drug interactions, when aggregated, as potentially inappropriate
                    drug pairs.

                    We used Medicare Part D prescription drug data to compare SNP
                    beneficiaries to other MA-PD beneficiaries regarding drug utilization,

 OEI-05-07-00490    C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                    PLAN BENEFICIARIES                                                                                                                                        i
E X E C U T I V E                        S U            M M A R Y


                   costs, and exposure to potentially inappropriate drug pairs during 2006.
                   Prescription drug data are the only encounter-level data available for
                   comparing SNP beneficiaries to other MA-PD beneficiaries.


                   FINDINGS
                   On average, SNP beneficiaries had higher prescription drug
                   utilization and costs than other MA-PD beneficiaries. On average,
                   SNP beneficiaries filled 11 percent more prescriptions than other
                   MA-PD beneficiaries in 2006. In addition, the average annual
                   prescription cost per SNP beneficiary was 49 percent higher compared
                   to that of other MA-PD beneficiaries. The difference in average annual
                   prescription drug cost per beneficiary between SNPs and other MA-PDs
                   appears to be because of SNP beneficiaries’ higher utilization,
                   utilization of costlier drugs, lower utilization of less costly 90-day
                   prescriptions, and SNPs paying more on average than MA-PDs for some
                   highly utilized drugs.
                   Despite SNP beneficiaries’ higher rates of drug utilization, SNP and
                   other MA-PD beneficiaries were similarly exposed to potentially
                   inappropriate drug pairs. Although SNP beneficiaries filled 11 percent
                   more prescriptions than other MA-PD beneficiaries on average, the
                   same percentage of both SNP and other MA-PD beneficiaries were
                   exposed to potentially inappropriate drug pairs. In addition, at higher
                   levels of drug utilization, SNP beneficiaries were less likely to be
                   exposed to a potentially inappropriate drug pair than other MA-PD
                   beneficiaries.
                   The majority of potentially inappropriate drug pairs were drug-drug
                   interactions of moderate risk for both SNP and other MA-PD
                   beneficiaries. The frequency and severity of potentially inappropriate
                   drug pairs were similar for SNP and other MA-PD beneficiaries during
                   2006. Sixty-five percent of potentially inappropriate drug pairs for both
                   SNP and other MA-PD beneficiaries were drug-drug interactions,
                   83 percent of which were of moderate risk. In addition, the majority of
                   potentially inappropriate drug pairs for both SNP and other MA-PD
                   beneficiaries recurred and involved drugs prescribed by the same
                   physician and filled by the same pharmacy.




 OEI-05-07-00490   C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                   PLAN BENEFICIARIES                                                                                                                                       ii
E X E C U T I V E                        S U            M M A R Y



                   RECOMMENDATION
                   The Centers for Medicare & Medicaid Services should help SNPs
                   and other MA-PDs provide physicians and pharmacists the
                   information they need to prevent inappropriate drug pairs leading to
                   ADEs. The number of potentially inappropriate drug pairs prescribed
                   and dispensed to Medicare beneficiaries could be reduced if physicians
                   and pharmacists have access to accurate and targeted information
                   regarding inappropriate drug pairs for the Medicare population. The
                   Centers for Medicare & Medicaid Services (CMS) should continue to
                   encourage plans to fully implement an e-prescribing program that
                   improves information physicians and pharmacists have about
                   beneficiaries’ medication histories. In addition, CMS should provide
                   plans information on inappropriate drug pairs most likely to lead to
                   severe or serious ADEs in the Medicare population. Finally, CMS should
                   encourage plans to provide tools to assist physicians and pharmacists in
                   appropriately analyzing and using the information they receive.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with our recommendation to help SNPs and other
                   MA-PDs provide physicians and pharmacists the information they need
                   to prevent inappropriate drug pairs that could lead to ADEs. CMS noted
                   that Part D sponsors are currently required to maintain systems to
                   monitor drug utilization, including the use of potentially inappropriate
                   drug pairs.

                   In addition, CMS expressed concern about our use of the First Databank
                   drug product information database to identify potentially inappropriate
                   drug pairs. CMS stated that First Databank algorithms have not been
                   specifically validated for use in the Medicare population. Although this
                   may be true, First DataBank is widely used by pharmacists, researchers,
                   and health care plans, including the Department of Veterans Affairs,
                   State Medicaid programs, and Part D sponsors, to identify inappropriate
                   drug pairs.




 OEI-05-07-00490   C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                   PLAN BENEFICIARIES                                                                                                                                      iii
Δ   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
                    Special Needs Plan beneficiaries’ drug utilization and costs were
                    higher . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                    Exposure to potentially inappropriate drug pairs was the
                    same . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

                    Moderate drug-drug interactions occurred most frequently . . . . . 15


         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
                    Agency Comments and Office of Inspector General Response . . . 21


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
                    A: Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

                    B: Differences in Cost for the Most Frequently Dispensed
                       Prescription Drugs in Special Needs Plans . . . . . . . . . . . . . . . 29

                    C: Drugs Most Frequently Involved in Severe and Serious
                       Potential Drug-Drug Interactions . . . . . . . . . . . . . . . . . . . . . . 31

                    D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  To compare Special Needs Plan (SNP) beneficiaries to other Medicare
                  Advantage Prescription Drug Plan (MA-PD) beneficiaries regarding
                  drug utilization, drug costs, and exposure to potentially inappropriate
                  drug pairs.


                  BACKGROUND
                  Since Special Needs Plans (SNP) became available in 2006, the number
                  of SNPs and SNP beneficiary enrollment have grown rapidly.
                  Policymakers have focused their attention on SNPs because of this
                  growth and because SNPs, like other Medicare managed care plans, cost
                  the Federal Government more per beneficiary than fee-for-service
                  Medicare. In particular, policymakers have questioned whether SNPs
                  are providing specialized care for special needs individuals. 1 For these
                  reasons, Congress placed a moratorium on the entry of new SNPs into
                  Medicare from January 1, 2008, through December 31, 2009. 2 This
                  moratorium provides additional time to study SNPs.

                  We used Medicare Part D prescription drug data to compare SNP
                  beneficiaries to other MA-PD beneficiaries regarding drug utilization,
                  costs, and exposure to potentially inappropriate drug pairs during 2006.
                  Prescription drug data are the only encounter-level data available for
                  comparing SNP beneficiaries to other MA-PD beneficiaries. Thus, the
                  comparisons provided in this report offer insights into the population of
                  beneficiaries enrolled in SNPs versus other MA-PD beneficiaries.
                  Medicare Managed Care
                  Effective January 1, 2006, the Medicare Prescription Drug,
                  Improvement, and Modernization Act of 2003 (MMA): (1) established
                  the Medicare Advantage (MA) program to replace the Medicare + Choice
                  program, 3 (2) added new MA plan types, 4 (3) changed MA payment




                      1 153 Cong. Rec. S15834, 15835 (daily ed. Dec. 18, 2007) (Statement of Sen. Grassley).
                      2 Medicare, Medicaid, and SCHIP Extension Act of 2007, P.L. No. 110-173 § 108, Social
                  Security Act, § 1851 note, 42 U.S.C. § 1395w-21 note.
                     3 MMA, P.L. No. 108-173 § 201, Social Security Act, § 1851 note, 42 U.S.C.
                  § 1395w-21 note.
                      4 MMA, P.L. No. 108-173 § 221, Social Security Act, § 1859(b), 42 U.S.C. § 1395w-28(b).




OEI-05-07-00490   C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                  PLAN BENEFICIARIES                                                                                                                                        1
I N T R O D        U C T              I O N


                    methodology, 5 and (4) provided qualified prescription drug coverage
                    under Medicare Part D (Part D). 6
                    Special Needs Plans
                    Congress created the SNP authority to allow MA plans to develop
                    targeted clinical programs to care more effectively for high-risk
                    beneficiaries. 7 The SNP, a type of MA plan, may restrict enrollment to
                    one or more classes of special needs individuals. 8 In contrast, all other
                    MA plans are prohibited from restricting enrollment based on
                    beneficiary health status. 9
                    Special needs individuals are MA-eligible individuals who are: 10

                    •    institutionalized or require an equivalent level of care, 11

                    •    eligible for both Medicare and Medicaid (dual eligible), or

                    •   suffering from a severe disability or have disabling chronic conditions
                        and meet such other requirements as set by the Secretary. 12
                    Congress initially authorized SNPs to target enrollment of special
                    needs individuals through December 2008. 13 In 2008, Congress
                    extended the SNP authorization through December 2010. 14 However,
                    Congress also extended the moratorium on the designation of other
                    MA plans as SNPs, originally in place through December 31, 2009, to
                    December 31, 2010. 15



                       5 MMA, P.L. No. 108-173 § 211, Social Security Act, § 1853(c)(1), 42 U.S.C.
                    § 1395w 23(c)(1).
                        6 MMA, P.L. No. 108-173 § 101, Social Security Act, § 1860D-1, 42 U.S.C. § 1395w-101.
                        7 H.R. Rep. No. 108-391, at 555 (2003) (Conf. Rep.).
                        8 Social Security Act, § 1859(f), 42 U.S.C § 1395w-28(f).
                        9 Social Security Act, § 1851(g), 42 U.S.C. § 1395w-21(g).
                        10 MA-eligible individuals are both entitled to Medicare Part A and enrolled in Medicare
                    Part B. Social Security Act, § 1851(a)(3), 42 U.S.C. §1395w-21(a)(3).
                      11 Centers for Medicare & Medicaid Services (CMS), “MA Special Needs Plan Guidance.”
                    January 19, 2006. Available online at
                    http://www.cms.hhs.gov/SpecialNeedsPlans/Downloads/FinalSNPGuidance1-19-06R1.pdf.
                    Accessed on June 30, 2008.
                        12 Social Security Act, § 1859(b)(6)(B), 42 U.S.C. § 1395w-28(b)(6)(B).
                        13 MMA, P.L. No. 108-173 § 231, Social Security Act, § 1859(f), 42 U.S.C. § 1395w-28(f).
                        14 Medicare Improvements for Patients and Providers Act of 2008, P.L. No. 110-275
                    § 164, Social Security Act, § 1859(f) note, 42 U.S.C. § 1395w-28(f).
                       15 Medicare Improvements for Patients and Providers Act of 2008, P.L. No. 110-275
                    § 164, Social Security Act, § 1851 note, 42 U.S.C. § 1395w-21 note.



 OEI-05-07-00490    C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                    PLAN BENEFICIARIES                                                                                                                                        2
I N T R O D        U C T              I O N


                    Before the moratorium, the number of SNPs and SNP beneficiary
                    enrollment increased rapidly. In 2006, there were 276 SNPs. 16
                    By 2008, there were 769 SNPs. 17 Over this same period, SNP
                    beneficiary enrollment increased over 102 percent. As of July 2008,
                    over 1.2 million beneficiaries were enrolled in SNPs. 18
                    In addition, SNPs, like other MA plans, continue to cost the Federal
                    Government more per beneficiary than fee-for-service Medicare. The
                    Medicare Payment Advisory Committee (MedPAC) has projected that
                    SNPs will cost 15 percent more, and all MA plans 13 percent more,
                    per beneficiary than fee-for-service Medicare in 2008. 19
                    Prescription Drug Coverage by SNPs and Other MA-PDs
                    MA plans that offer prescription drug coverage under Part D are
                    referred to as MA-PDs. 20 All SNPs must offer prescription drug
                    coverage and are therefore MA-PDs. 21 More than 8 million beneficiaries
                    were enrolled in MA-PDs as of July 2008, including the over 1.2 million
                    beneficiaries enrolled in SNPs. 22
                    The Federal Government, through CMS, pays a portion of basic drug
                    coverage through a monthly prospective direct subsidy payment to
                    MA-PDs. 23 CMS adjusts MA-PD payments based on the estimated
                    impact of enrollees’ health on plans’ costs using the Part D Hierarchical
                    Condition Category risk adjustment model to calculate beneficiaries’
                    Part D risk scores. The higher a beneficiary’s risk score, the higher the
                    payment is for that beneficiary.


                        16 CMS, “Special Needs Plans – Fact Sheet & Data Summary.” Available online at

                    http://www.cms.hhs.gov/SpecialNeedsPlans/Downloads/FSNPFACT.pdf. Accessed on
                    March 27, 2008.
                      17 CMS, “SNP Comprehensive Report,” July 2008. Available online at
                    http://www.cms.hhs.gov/MCRAdvPartDEnrolData/Downloads/SNP-200807.zip. Accessed on
                    July 28, 2008.
                        18 Ibid.
                        19 MedPAC, “Report to the Congress: Medicare Payment Policy March 2008,”
                    pp. 246–247. Available online at
                    http://www.medpac.gov/documents/Mar08_EntireReport.pdf. Accessed on March 3, 2008.
                        20 42 CFR § 422.2.
                        21 Ibid.
                        22 CMS, “Monthly Contract and Enrollment Summary Report,” July 2008. Available
                    online at
                    http://www.cms.hhs.gov/MCRAdvPArtDEnrolData/Downloads/Contract%20Summary%20-
                    %20July%202008.zip. Accessed on July 28, 2008.
                        23 42 CFR § 423.329(a)(1).




 OEI-05-07-00490    C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                    PLAN BENEFICIARIES                                                                                                                                        3
I N T R O D        U C T              I O N


                    Beneficiaries are typically responsible for paying a monthly premium, a
                    deductible, and copayments for each prescription they fill. 24 However,
                    beneficiaries with limited income and assets who meet certain
                    requirements are eligible to receive assistance to pay for out-of-pocket
                    costs associated with their prescription drug coverage. 25 Most SNP
                    beneficiaries are dual eligibles (beneficiaries enrolled in both Medicare
                    and Medicaid) who are automatically deemed eligible for this
                    assistance. 26 27
                    Therapeutic Duplication and Drug-Drug Interaction
                    Therapeutic duplication occurs when the combined dose of two drugs
                    from the same therapeutic class (i.e., groups of drugs that treat the
                    same medical condition) increases the risk of toxicity. Drug-drug
                    interaction occurs when two drugs taken together lead to a clinically
                    significant toxicity or when one drug interferes with the effectiveness of
                    the other.

                    Therapeutic duplication and drug-drug interaction may be the result of
                    a medication error or may be part of a clinically appropriate drug
                    regimen. Regardless, they have the potential to lead to an unexpected
                    or dangerous reaction, called an adverse drug event (ADE). Thus, they
                    may require monitoring or a change in drug regimen. Throughout the
                    report, we refer to therapeutic duplication and drug-drug interaction,
                    when aggregated, as potentially inappropriate drug pairs.

                    An ADE may involve temporary or moderate side effects such as nausea
                    or a rash, or can have serious consequences including patient death or
                    serious disabilities. 28 More severe ADEs could result in emergency
                    department visits, hospital admissions, or death. 29 Among Medicare

                        24 Social Security Act, § 1860D-2, 42 U.S.C. § 1395w-102; and Social Security Act,
                    § 1860D-13, 42 U.S.C. § 1395w-113.
                        25 Social Security Act, § 1860D-14, 42 U.S.C. § 1395w-114.
                        26 CMS, “SNP Comprehensive Report,” July 2008. Available online at
                    http://www.cms.hhs.gov/MCRAdvPartDEnrolData/Downloads/SNP-200807.zip. Accessed on
                    July 28, 2008.
                        27 Social Security Act, § 1860D-14, 42 U.S.C. § 1395w-114.
                        28 Adverse Drug Events: Substantial Problem but Magnitude Uncertain: Hearing
                    Before the U.S. Senate Committee on Health, Education, Labor, and Pensions,
                    106th Cong. 3 (2000) (Statement of Janet Heinrich, Associate Director for Health Financing
                    and Public Health Issues, Health and Human Services Division, U.S. Government
                    Accountability Office). Available online at http://www.gao.gov/new.items/he00053t.pdf.
                    Accessed on March 27, 2008.
                        29 Ibid.




 OEI-05-07-00490    C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                    PLAN BENEFICIARIES                                                                                                                                        4
I N T R O D        U C T              I O N


                    enrollees, more than 1.9 million ADEs and more than
                    180,000 life-threatening or fatal ADEs occur each year. It is estimated
                    that more than 25 percent of ADEs and 50 percent of life-threatening or
                    fatal ADEs are preventable. 30
                    SNP beneficiaries may be at an increased risk of potentially
                    inappropriate drug pairs leading to ADEs. Age, severity of illness, and
                    the number of prescribed drugs have been associated with a higher risk
                    of ADEs. 31 SNP beneficiaries typically have chronic illnesses and
                    multiple medical conditions that may require more drugs than other
                    Medicare beneficiaries. 32
                    Prescription Drug Safeguards and Safety Initiatives
                    CMS requires all MA-PDs, including SNPs, to implement two
                    safeguards designed, in part, to reduce ADEs and improve medication
                    use: quality assurance systems and medication therapy management
                    (MTM) programs. 33 In addition, CMS encourages e-prescribing as a
                    means of preventing ADEs. 34 Finally, the Food and Drug
                    Administration (FDA) is using Medicare Part D prescription drug data
                    as part of the initiative to monitor drug safety. 35
                    Quality assurance systems aim to protect beneficiaries, reduce ADEs,
                    and improve medication use by reviewing beneficiaries’ medications
                    through concurrent and retrospective drug utilization review systems.


                      30 Jerry H. Gurwitz, et al., 2003. “Incidence and preventability of adverse drug events
                    among older persons in the ambulatory setting.” Journal of the American Medical
                    Association, vol. 289(9), pp. 1107–1116.
                      31 Agency for Healthcare Research and Quality, “Reducing and Preventing Adverse Drug
                    Events to Decrease Hospital Costs.” Available online at
                    http://www.ahrq.gov/qual/aderia/aderia.htm. Accessed on September 21, 2007.
                        32 National Health Policy Group Memorandum, “Performance Measures for Special
                    Needs Plans.” Available online at
                    http://www.nhpg.org/media/3014/snpalliancedsnpperfromancemeasures.pdf. Accessed on
                    October 9, 2007.
                        33 42 CFR §423.153.
                        34 CMS, “E-Prescribing Tools To Help Prevent Adverse Drug Interactions Press Release,”
                    April 2, 2008. Available online at
                    http://www.cms.hhs.gov/apps/media/press/release.asp?Counter=3025&intNumPerPage=10&
                    checkDate=&checkKey=&srchType=1&numDays=3500&srchOpt=0&srchData=&keywordT
                    ype=All&chkNewsType=1%2C+2%2C+3%2C+4%2C+5&intPage=&showAll=&pYear=&year
                    =&desc=false&cboOrder=date. Accessed on June 18, 2008.
                        35 CMS, “New Efforts to Help Improve Medical Products for Patient Safety and Quality
                    of Medical Care,” May 22, 2008. Available online at
                    http://www.hhs.gov/news/press/2008pres/05/20080522a.html. Accessed on August 27, 2008.



 OEI-05-07-00490    C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                    PLAN BENEFICIARIES                                                                                                                                        5
I N T R O D        U C T              I O N


                    Concurrent drug utilization review systems screen for potential drug
                    therapy problems at a drug’s point of sale and alert pharmacists to
                    potentially inappropriate drug pairs before the drugs have been
                    dispensed to the patient. Retrospective drug utilization reviews are
                    periodic examinations that may be used to identify potentially
                    inappropriate drug pairs after the drugs have been dispensed.

                    MTM programs educate beneficiaries about the potential risks of their
                    prescribed drug combinations. 36 At a minimum, a plan’s MTM program
                    must target enrollees who have multiple chronic diseases, are taking
                    multiple Part D drugs, and are likely to incur annual costs for covered
                    Part D drugs that exceed $4,000. 37 Beyond these minimum standards,
                    plans have significant flexibility in determining their targeted
                    populations and designing the services their MTM programs provide
                    and how they provide them.

                    In addition, CMS promotes the use of e-prescribing, anticipating that it
                    will help reduce the number of ADEs for Medicare beneficiaries. Once
                    e-prescribing is fully implemented, it has the potential to reduce ADEs
                    by allowing plans, physicians, and pharmacists to efficiently
                    communicate about the prescription drugs a beneficiary is taking. 38 To
                    encourage its adoption, CMS established standards for e-prescribing
                    under Part D, including standards related to formulary and benefits,
                    medication history, fill status notification, and identification of
                    individual health care providers. 39
                    Finally, through its Sentinel Initiative, FDA will create a system to
                    monitor the performance of prescription drugs, as well as medical
                    devices, for potential problems such as ADEs. This initiative will link
                    Medicare Part D prescription drug data, which became available to

                        36 CMS, “Medicare Prescription Drug Manual,” ch. 7, § 30.1. Available online at
                    http://www.cms.hhs.gov/PrescriptionDrugCovContra/Downloads/PDBManualChap7Quality.
                    pdf. Accessed on April 11, 2008.
                      37 CMS, “Medicare Prescription Drug Manual,” ch. 7, § 30.2. Available online at
                    http://www.cms.hhs.gov/PrescriptionDrugCovContra/Downloads/PDBManualChap7Quality.
                    pdf. Accessed on April 11, 2008.
                      38 CMS, “E-Prescribing Tools To Help Prevent Adverse Drug Interactions Press Release,”
                    April 2, 2008. Available online at
                    http://www.cms.hhs.gov/apps/media/press/release.asp?Counter=3025&intNumPerPage=10&
                    checkDate=&checkKey=&srchType=1&numDays=3500&srchOpt=0&srchData=&keywordT
                    ype=All&chkNewsType=1%2C+2%2C+3%2C+4%2C+5&intPage=&showAll=&pYear=&year
                    =&desc=false&cboOrder=date. Accessed on June 18, 2008.
                        39 73 Fed. Reg. 18918 (Apr. 7, 2008).




 OEI-05-07-00490    C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                    PLAN BENEFICIARIES                                                                                                                                        6
I N T R O D        U C T              I O N


                    Federal agencies in May 2008, with Medicare inpatient and outpatient
                    data in an attempt to identify ADEs that occurred. 40 Although MA-PD
                    inpatient and outpatient data are not collected by CMS and are not
                    included in the initiative, FDA will have access to the Medicare Part D
                    prescription drug data for more than 25 million beneficiaries.
                    Office of Inspector General and Related Work
                    The Kaiser Family Foundation issued a study in January 2008 that
                    concluded that SNPs’ value was uncertain, stating that further
                    information was essential for assessing them. 41 In addition, Congress
                    mandated a report from CMS concerning SNPs, to be completed no later
                    than December 31, 2007. 42 Congress required that the report assess the
                    cost and quality of services SNPs provide to beneficiaries. As of
                    September 2008, the report has yet to be released.

                    The Institute of Medicine issued a congressionally mandated report in
                    July 2006 on the nature and causes of medication errors and ADEs,
                    their impact on patients, and other issues concerning them in the
                    national population. 43 The study found that the rates of medication
                    errors and preventable ADEs are high, but that effective strategies to
                    prevent medication errors and ADEs, such as e-prescribing, physician
                    and patient education, and pharmacist involvement, are available.

                    The Tax Relief and Health Care Act of 2006 requires the Inspector
                    General to report to Congress regarding the incidence of “never events”
                    (preventable serious adverse events) for Medicare beneficiaries,
                    including types of events and payments by any party. 44 This report is
                    one in a series that the Office of Inspector General is conducting
                    concerning adverse events for Medicare beneficiaries, including those
                    that occur in hospitals. This report explores potentially inappropriate
                    drug pairs that may lead to ADEs.


                        40 CMS, “New Efforts to Help Improve Medical Products for Patient Safety and Quality
                    of Medical Care,” May 22, 2008. Available online at
                    http://www.hhs.gov/news/press/2008pres/05/20080522a.html. Accessed on August 27, 2008.
                      41 J.D. Verdier, et al., “Do We Know If Medicare Advantage Special Needs Plans Are
                    Special?” Medicare Issue Brief, The Henry J. Kaiser Foundation, January 2008. Available
                    online at http://www.kff.org/medicare/upload/7729.pdf. Accessed on April 14, 2008.
                       42 MMA, P.L. No. 108-173 § 231, Social Security Act § 1851 note, 42 U.S.C.
                    § 1395w-21 note.
                     43 Philip Aspden, et al., Institute of Medicine of the National Academies, “Preventing
                    Medication Errors: Quality Chasm Series,” 2007.
                        44 The Tax Relief and Health Care Act of 2006, P.L. No. 109-432 § 203.




 OEI-05-07-00490    C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                    PLAN BENEFICIARIES                                                                                                                                        7
I N T R O D        U C T              I O N




                    METHODOLOGY
                    This study compares SNP beneficiaries’ drug utilization, cost, and
                    exposure to potentially inappropriate drug pairs to those of other
                    MA-PD beneficiaries. These comparisons provide insights into the
                    population of beneficiaries enrolled in SNPs and other MA-PDs using
                    measures related to prescription drug use.
                    Scope
                    This study does not analyze SNP or other MA-PD efforts to manage
                    prescription drug use or to reduce beneficiaries’ exposure to potentially
                    inappropriate drug pairs. Instead, our analysis focuses on comparing
                    SNP beneficiaries to other MA-PD beneficiaries. Prescription drug data
                    are the only encounter-level data available for Medicare managed care
                    plans. These data allow for a comparison of SNP beneficiaries to other
                    MA-PD beneficiaries, but do not allow for a comparison of plans’
                    programs for managing prescription drug use.

                    We limited our analysis to therapeutic duplications and drug-drug
                    interactions. We focused on these because they are evident through
                    prescription drug data and because they are defined in accepted
                    industry resources.
                    Data Sources
                    We used three data sources to conduct this study: (1) 2006 Part D
                    Prescription Drug Event (PDE) data, (2) August 2007 First DataBank
                    drug product information data, and (3) 2006 CMS plan-level descriptive
                    data.

                    CMS requires plans providing prescription drug coverage to submit
                    PDE data for payment purposes. Each drug event included in these
                    data represents the dispensing of a drug or a medical supply for the
                    injection of insulin.

                    For more information on our data sources and other aspects of our
                    methodology, see Appendix A.
                    Data Analysis
                    We analyzed all prescriptions for 634,000 SNP beneficiaries and
                    5.8 million other MA-PD beneficiaries in 2006. We used First
                    DataBank to obtain product information for each prescription and



 OEI-05-07-00490    C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                    PLAN BENEFICIARIES                                                                                                                                        8
I N T R O D        U C T              I O N


                    CMS’s plan-level descriptive data to determine whether plans were
                    SNPs or other MA-PDs.

                    Calculating prescription drug utilization. To assess beneficiary drug
                    utilization within SNPs versus that in other MA-PDs in 2006, we
                    calculated the average number of prescriptions filled per beneficiary.
                    We used PDE data, normalized by the number of days that the
                    prescriptions covered, to calculate the number of prescriptions filled by
                    beneficiaries. We considered PDE data with days of supply less than or
                    equal to 44 days as one prescription. PDE data with days of supply
                    greater than 44 but less than or equal to 74 were counted as two
                    prescriptions. PDE data with days of supply greater than 74 were
                    counted as three prescriptions.

                    We also determined which drugs were most frequently dispensed to
                    SNP and other MA-PD beneficiaries during 2006. We based our count
                    of drugs on the Ingredient List Identifier for each drug. The Ingredient
                    List Identifier represents a unique combination of active ingredients,
                    regardless of manufacturer, package size, dosage form, route of
                    administration, or strength. This identifier does not distinguish
                    whether a drug is the generic or brand name version.

                    Calculating prescription drug costs. We calculated the prescription drug
                    costs incurred by SNPs and other MA-PDs on behalf of their
                    beneficiaries at the point of sale. We did not calculate net costs because
                    they are not captured in the PDE data. To calculate the cost of
                    prescription drugs, we used the ingredient cost field provided in the
                    PDE data, which represents the cost of the drug. It does not include
                    any additional administrative costs, such as the dispensing fee paid to
                    pharmacies.

                    Using these data, we calculated the average annual prescription drug
                    cost per beneficiary for SNPs and other MA-PDs. We also calculated the
                    average cost per prescription for both SNP and other MA-PD
                    beneficiaries, the overall average cost per prescription for the most
                    frequently dispensed drugs for SNP and other MA-PD beneficiaries, and
                    the average cost paid by SNPs and other MA-PDs for the most
                    frequently dispensed drugs for SNP beneficiaries.

                    Calculating potential therapeutic duplications and drug-drug interactions.
                    For our analysis of potential therapeutic duplications and drug-drug
                    interactions, we did not include beneficiaries who filled prescriptions
                    under more than one plan. We did this to avoid counting potential

 OEI-05-07-00490    C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                    PLAN BENEFICIARIES                                                                                                                                        9
I N T R O D        U C T              I O N


                    therapeutic duplications and drug-drug interactions involving drugs
                    from two different plans. Excluding these 400,000 beneficiaries left
                    534,000 SNP beneficiaries and 5.5 million other MA-PD beneficiaries in
                    our analysis of potential therapeutic duplications and drug-drug
                    interactions.

                    To determine when potential therapeutic duplications occurred, we used
                    First DataBank’s Duplicate Therapy Module. This module provides
                    information on whether duplication within a therapeutic class increases
                    the risk of toxicity.

                    To determine when potential drug-drug interactions occurred, we used
                    First DataBank’s Drug-Drug Interaction Module. First DataBank uses
                    a system of flags to identify when two drugs potentially interact if taken
                    simultaneously and assigns each interaction a severity level. See
                    Table 1 for more detail on First DataBank’s severe, serious, and
                    moderate severity levels.


                                    Table 1: Severity Levels of Drug-Drug Interactions

                                   Severity
                                   Level                    Description of Interaction
                                                            These medicines are not usually taken together. Contact health care
                                   Severe
                                                            professional (e.g., doctor or pharmacist) for more information.
                                                            These medicines may interact and cause very harmful effects.
                                   Serious
                                                            Contact health care professional for more information.
                                                            These medicines may cause some risk when taken together.
                                   Moderate
                                                            Contact health care professional for more information.
                                Source: First DataBank Drug-Drug Interaction Module, 2007.




                    Data Limitations
                    This study only identifies potential therapeutic duplications and
                    drug-drug interactions. It does not determine whether these potentially
                    inappropriate drug pairs were prescribed or dispensed purposefully or
                    in error. In addition, this study does not determine that beneficiaries
                    took the drugs they were dispensed nor whether beneficiaries who took
                    the drugs experienced any ill effects. Thus, this study does not
                    determine that an ADE occurred. Rather, the potential therapeutic
                    duplications and drug-drug interactions identified in this report are
                    instances in which drug pairs created the circumstances in which an
                    ADE could occur and thus may have required monitoring by a health
                    care professional.


 OEI-05-07-00490    C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                    PLAN BENEFICIARIES                                                                                                                                     10
I N T R O D        U C T              I O N


                    This study uses only one source of information, First DataBank, to
                    identify potential therapeutic duplications and drug-drug interactions.
                    First DataBank is widely used by pharmacists and researchers as a tool
                    for obtaining drug information, including alerts for therapeutic
                    duplications and drug-drug interactions. However, individual plans
                    may use other databases and tools that may identify potential
                    therapeutic duplications or drug-drug interactions differently from First
                    DataBank.

                    We did not independently verify the First Databank modules’ accuracy
                    in identifying potential therapeutic duplications and drug-drug
                    interactions in the Medicare population. Further, we did not compare
                    First DataBank to other sources for identifying potential therapeutic
                    duplications and drug-drug interactions.
                    Standards
                    This study was conducted in accordance with the “Quality Standards
                    for Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-05-07-00490    C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                    PLAN BENEFICIARIES                                                                                                                                      11
Δ   F I N D I N G S

 On average, SNP beneficiaries had higher              On average, SNP beneficiaries filled
prescription drug utilization and costs than           11 percent more prescriptions and
                                                       had 49 percent higher average
                 other MA-PD beneficiaries
                                                       prescription drug costs than other
                  MA-PD beneficiaries in 2006. SNP beneficiaries’ higher prescription
                  drug utilization and costs indicate that they may be different from other
                  MA-PD beneficiaries, at least as far as their drug utilization and costs
                  are concerned.
                  On average, SNP beneficiaries filled 11 percent more prescriptions than
                  other MA-PD beneficiaries
                  On average, SNP beneficiaries filled 40 prescriptions during 2006.
                  Other MA-PD beneficiaries filled 36 prescriptions on average during
                  2006. In addition, 25 percent of SNP beneficiaries filled
                  56 prescriptions or more, compared to 21 percent of other MA-PD
                  beneficiaries.

                  SNP beneficiaries filled, on average, five prescriptions per month during
                  2006. Other MA-PD beneficiaries filled, on average, between four and
                  five prescriptions per month.

                  Overall, 93 percent of prescriptions were refills during 2006. For SNP
                  beneficiaries, 90 percent of prescriptions were refills; for other MA-PD
                  beneficiaries, 93 percent were refills. Frequent refills indicate the use of
                  maintenance drugs for chronic conditions rather than drugs to treat
                  acute episodes.
                  On average, the annual prescription drug cost per SNP beneficiary was
                  49 percent higher than that of other MA-PD beneficiaries
                  The average annual prescription drug cost per SNP beneficiary was
                  $2,104 in 2006, with most beneficiaries’ prescription drug costs ranging
                  between $390 and $2,600. In comparison, other MA-PD beneficiaries
                  had an average annual prescription drug cost of $1,411 per beneficiary.
                  In fact, 79 percent of other MA-PD beneficiaries had annual prescription
                  drug costs that were below the SNP beneficiaries’ average annual
                  prescription drug cost of $2,104.

                  The fact that SNP beneficiaries’ average annual prescription drug cost
                  was higher than other MA-PD beneficiaries’ may be partially explained
                  by drug utilization. As previously indicated, SNP beneficiaries filled, on
                  average, four more prescriptions than other MA-PD beneficiaries.

                  In addition, the average cost per prescription for SNP beneficiaries was
                  greater than that for other MA-PD beneficiaries. On average, SNP

OEI-05-07-00490   C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                  PLAN BENEFICIARIES                                                                                                                                     12
F   I N D I N G         S


                      beneficiaries’ prescriptions cost $53 compared to $39 for other MA-PD
                      beneficiaries. The fact that SNP beneficiaries’ average cost per
                      prescription was higher than that of other MA-PD beneficiaries may be
                      explained by SNP beneficiaries’ utilization of costlier drugs, their low
                      utilization of less-expensive 90-day prescriptions, and the prices
                      negotiated between plans and pharmacies.

                      SNP beneficiaries used drugs that were somewhat different from, and
                      more costly than, those used by other MA-PD beneficiaries. For
                      example, there were nine drugs that differed when comparing the
                      40 drugs most frequently dispensed to SNP beneficiaries and other
                      MA-PD beneficiaries. Using the overall average prescription drug cost
                      as a measure of market value, the nine drugs found only on the SNP list
                      of top drugs were more expensive drugs. The overall average cost per
                      prescription for these nine drugs was $86, compared to $22 for the
                      nine drugs found only on the list of top drugs used by other MA-PD
                      beneficiaries.

                      In addition, SNP beneficiaries had a lower utilization of 90-day
                      prescriptions. Only 1 percent of SNP beneficiaries’ prescriptions were
                      for 90 days compared to 14 percent for other MA-PD beneficiaries.
                      These extended prescriptions cost 57 percent less per day than 30-day
                      prescriptions. SNP beneficiaries’ low utilization of 90-day prescriptions
                      may be an intentional strategy by SNPs to more closely monitor their
                      special needs population.

                      Finally, in some cases, SNPs paid pharmacies more for the same drug
                      than other MA-PDs. For example, SNPs paid more per prescription
                      than other MA-PDs for 34 of the 40 drugs most frequently dispensed to
                      SNP beneficiaries. SNPs paid as much as 52 percent more than other
                      MA-PDs for these drugs. See Appendix B for a breakout of this analysis
                      by prescription drug.

                      SNPs may have paid more for some drugs than other MA-PDs because
                      of differences in negotiating power, either because SNPs are not part of
                      larger organizations or because they have lower enrollment. Lack of
                      affiliation with larger organizations and lower enrollment translates
                      into less market share to use as a tool to bargain for lower drug prices.
                      Overall, SNPs typically have lower enrollment than other MA-PDs. In
                      fact, for 2008, 63 percent of SNPs have fewer than 500 beneficiaries
                      enrolled in their plans.



    OEI-05-07-00490   C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                      PLAN BENEFICIARIES                                                                                                                                     13
F   I N D I N G         S



Despite SNP beneficiaries’ higher rates of drug                Because SNP beneficiaries filled
                                                               more prescriptions for more drugs
utilization, SNP and other MA-PD beneficiaries
                                                               than other MA-PD beneficiaries,
           were similarly exposed to potentially
                                                               they might be expected to be at
                       inappropriate drug pairs                greater risk of exposure to
                      potentially inappropriate drug pairs. The greater the drug utilization
                      and the more different drugs a beneficiary takes, the greater the
                      opportunity for exposure to potentially inappropriate drug pairs. SNP
                      beneficiaries filled 11 percent more prescriptions than other MA-PD
                      beneficiaries, on average. In addition, on average, SNP beneficiaries
                      filled prescriptions for 10 different drugs while other MA-PD
                      beneficiaries filled prescriptions for 8 different drugs. Despite this
                      higher drug utilization, the same percentage of SNP beneficiaries were
                      exposed to at least one potentially inappropriate drug pair as other
                      MA-PD beneficiaries. Fifty-three percent of both SNP and other MA-PD
                      beneficiaries were exposed to at least one potential therapeutic
                      duplication or drug-drug interaction, which may or may not have led to
                      an ADE.
                      At higher levels of prescription drug utilization, SNP beneficiaries were less
                      likely to be exposed to a potentially inappropriate drug pair than other
                      MA-PD beneficiaries
                      In general, exposure to potentially inappropriate drug pairs is positively
                      correlated to the number of prescriptions filled by beneficiaries. As
                      utilization increased, a greater percentage of SNP and other MA-PD
                      beneficiaries were exposed to at least one potentially inappropriate drug
                      pair. However, at higher levels of prescription drug utilization, SNP
                      beneficiaries were less likely than other MA-PD beneficiaries to be
                      exposed to a potentially inappropriate drug pair. For example,
                      67 percent of SNP beneficiaries who filled between 41 and
                      60 prescriptions were exposed to a potential therapeutic duplication or
                      drug-drug interaction, compared to 77 percent of other MA-PD
                      beneficiaries. The chart on the following page illustrates that SNP
                      beneficiaries were less likely to be exposed to a potential therapeutic
                      duplication or drug-drug interaction than other MA-PD beneficiaries at
                      higher levels of prescription drug utilization.




    OEI-05-07-00490   C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                      PLAN BENEFICIARIES                                                                                                                                     14
 F             I N D I N G                         S



 Chart 1: Percentage of SNP and Other MA-PD Beneficiaries Exposed to a Therapeutic
 Duplication or Drug-Drug Interaction for Ranges of Prescriptions

                                   100%


                                   90%


                                   80%


                                   70%
     Percentage of Beneficiaries




                                   60%


                                                                                                                                                                                                   SNPs
                                   50%
                                                                                                                                                                                                   Other MA-PDs


                                   40%


                                   30%


                                   20%


                                   10%


                                    0%
                                          1–20                       21–40                             41–60                             61–80                            81+

                                                                         Number of Prescriptions During 2006
 Source: Office of Inspector General (OIG) analysis of 2006 PDE data, 2008.




    The majority of potentially inappropriate drug                                     The type and severity of the
   pairs were drug-drug interactions of moderate                                       potentially inappropriate drug
                                                                                       pairs SNP and other MA-PD
risk for both SNP and other MA-PD beneficiaries
                                                                                       beneficiaries were exposed to were
                                                                                       similar during 2006. Over half of
                                                 potentially inappropriate drug pairs for both SNP and other MA-PD
                                                 beneficiaries were drug-drug interactions, most of which were of
                                                 moderate risk.
                                                 For both SNP and other MA-PD beneficiaries, the majority of potentially
                                                 inappropriate drug pairs were drug-drug interactions
                                                 Drug-drug interactions accounted for 65 percent of potentially
                                                 inappropriate drug pairs for both SNP and other MA-PD beneficiaries.
                                                 The remaining 35 percent of potentially inappropriate drug pairs were

       OEI-05-07-00490                           C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                                                 PLAN BENEFICIARIES                                                                                                                                     15
F   I N D I N G         S


                      therapeutic duplications. On average, SNP and other MA-PD
                      beneficiaries who were exposed to potentially inappropriate drug pairs
                      experienced eight potentially inappropriate drug pairs, of which
                      six were drug-drug interactions.
                      For both SNP and other MA-PD beneficiaries, the majority of potential
                      drug-drug interactions were of moderate risk
                      Overall, 83 percent of potential drug-drug interactions were of moderate
                      risk. In other words, five of the six potential drug-drug interactions, on
                      average, were of moderate risk for beneficiaries who experienced
                      potential drug-drug interactions. Eighty-four percent of potential
                      drug-drug interactions for SNP beneficiaries and 83 percent for other
                      MA-PD beneficiaries were of moderate risk.

                      Moderate drug-drug interactions may cause some risk to the
                      beneficiary. The moderate drug-drug interactions identified in this
                      report could have led to problems such as low blood pressure, nausea,
                      fatigue, or muscle weakness.

                      Severe and serious interactions accounted for 17 percent of potential
                      drug-drug interactions. Severe interactions, which result from two drugs
                      that are contraindicated and should not usually be taken together,
                      accounted for 1 percent of potential drug-drug interactions for both SNP
                      and other MA-PD beneficiaries. Serious interactions, which may cause
                      very harmful effects, accounted for 16 percent of all potential drug-drug
                      interactions. Serious drug-drug interactions accounted for 15 percent of
                      potential drug-drug interactions for SNP beneficiaries and 16 percent
                      for other MA-PD beneficiaries. On average, one of the six potential
                      drug-drug interactions for beneficiaries exposed to potentially
                      inappropriate drug pairs was of either severe or serious risk.

                      Severe and serious drug-drug interactions may require a change in drug
                      regimen or monitoring by a health care professional. These interactions
                      can lead to problems such as gastrointestinal damage, abnormal heart
                      rates, or bleeding complications.

                      Certain drugs were more likely to be involved in severe or serious
                      potential drug-drug interactions. These drugs treat a variety of
                      ailments, such as heart conditions, high blood pressure, blood clots,
                      overactive bladders, infections, pain, high cholesterol, gastrointestinal
                      disorders, and low potassium. See Appendix C for a list of the 20 drugs
                      most frequently involved in severe or serious potential drug-drug
                      interactions.

    OEI-05-07-00490   C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                      PLAN BENEFICIARIES                                                                                                                                     16
F   I N D I N G         S


                      Two drugs, potassium chloride and warfarin sodium, stand out because
                      of the frequency with which they were involved in either a severe or
                      serious potential drug-drug interaction. Health care professionals are
                      generally aware of both drugs’ potential risks and may have provided
                      increased observation of beneficiaries taking these drugs.

                      Potassium chloride was involved in 34 percent of severe potential
                      drug-drug interactions. Potassium chloride can produce ulcerative
                      lesions of the gastrointestinal tract. 45 Some of the severe potential
                      drug-drug interactions in which it was involved could have also
                      produced gastrointestinal damage. Two of the drugs most frequently
                      involved in potential drug-drug interactions with potassium chloride
                      were lisinopril and spironolactone. These drugs are often prescribed in
                      combination with potassium chloride but may require a decrease in the
                      dose of potassium chloride and monitoring by a health care professional.

                      Warfarin sodium was involved in 17 percent of serious potential
                      drug-drug interactions. Warfarin sodium can increase the risk of
                      hemorrhage. 46 Some of the serious potential drug-drug interactions in
                      which it was involved could have produced bleeding complications.
                      Two of the drugs most frequently involved in potential drug-drug
                      interactions with warfarin sodium were lovastatin and levothyroxine
                      sodium. These drugs are often prescribed in combination with warfarin
                      sodium but may require a decrease in the dose of warfarin sodium and
                      monitoring by a health care professional.
                      For both SNP and other MA-PD beneficiaries, the majority of potentially
                      inappropriate drug pairs recurred
                      Overall, 74 percent of all potentially inappropriate drug pairs recurred.
                      Of these recurring potentially inappropriate drug pairs, 26 percent were
                      produced by unique drug pairs; the rest were recurrences of these
                      unique drug pairs. Seventy-seven percent of all potentially
                      inappropriate drug pairs recurred for SNP beneficiaries and 74 percent
                      recurred for other MA-PD beneficiaries.

                      Seventy-nine percent of all severe and 80 percent of all serious potential
                      drug-drug interactions were recurring errors. Twenty-three percent of


                          45 “Potassium Chloride.” Physicians’ Desk Reference, 60th ed., 2006, pp. 3047–3048.
                          46 “Coumadin (Warfarin Sodium).” Physicians’ Desk Reference, 60th ed., 2006,
                      pp. 932–937.




    OEI-05-07-00490   C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                      PLAN BENEFICIARIES                                                                                                                                     17
F   I N D I N G         S


                      both the severe and serious potential drug-drug interactions that
                      recurred were produced by unique drug pairs.

                      The fact that most potentially inappropriate drug pairs recurred
                      suggests that either the risks of the potential therapeutic duplications
                      and drug-drug interactions were known and outweighed by medical
                      necessity or that the physician or pharmacy was unaware of the risks.
                      In some cases, health professionals may have been monitoring
                      beneficiaries for potentially dangerous effects. In other cases,
                      beneficiaries may have been repeatedly exposed to potential therapeutic
                      duplications and drug-drug interactions, some of a severe or serious
                      nature, that should have been detected and corrected.
                      For both SNP and other MA-PD beneficiaries, the majority of
                      potentially inappropriate drug pairs involved drugs prescribed by the
                      same physician and filled by the same pharmacy

                      Overall, 66 percent of all potentially inappropriate drug pairs involved
                      drugs prescribed by the same physician and dispensed by the same
                      pharmacy. Twenty-two percent of all potentially inappropriate drug
                      pairs were filled at the same pharmacy on the same day.

                      Seventy-three percent of all potentially inappropriate drug pairs
                      involved drugs that were prescribed by the same physician. In some of
                      these cases, the physician may have been unaware of the potential risks
                      of prescribing the two drugs together. One study of physicians’
                      knowledge of drug-drug interactions showed that they could correctly
                      classify drugs as adversely interacting only about half of the time. 47
                      Moreover, 88 percent of all potentially inappropriate drug pairs involved
                      drugs that were filled by the same pharmacy. Pharmacies typically
                      have concurrent drug utilization review systems that alert pharmacists
                      to potentially inappropriate drug pairs. However, one study found that
                      pharmacists override the majority of alerts, concluding that the high
                      volume of alerts may be overwhelming. 48 Another study found that




                          47 Peter A. Glassman, et al., 2002. “Improving recognition of drug interactions: benefits
                      and barriers to using automated drug alerts.” Medical Care, vol. 40, pp. 1161–1171.
                          48 Michelle A. Chui and Michael T. Rupp, 2006. “Evaluation of online prospective DUR
                      programs in community pharmacy practice.” Journal of Managed Care Pharmacy,
                      vol. 6, pp. 27–32.



    OEI-05-07-00490   C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                      PLAN BENEFICIARIES                                                                                                                                     18
F   I N D I N G         S


                      pharmacists also may not always be aware of the potential risks of
                      two drugs when taken together. 49




                         49 Rich A. Weideman, et al., 1999. “Pharmacist recognition of potential drug
                      interactions.” American Journal of Health System Pharmacy, vol. 56, pp. 1524–1529.



    OEI-05-07-00490   C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                      PLAN BENEFICIARIES                                                                                                                                     19
RR
 F E IE CNC ODO MI M N
                     M MG
                        E ES
                           N N D D A AT T I I O O N N S S
Δ        R E C O M M E N D A T I O N

                          SNP beneficiaries filled more prescriptions and had higher average
                          prescription drug costs than other MA-PD beneficiaries. This indicates
                          that SNP beneficiaries may be different from other MA-PD
                          beneficiaries, at least as far as their drug utilization and costs are
                          concerned. In addition, although SNP beneficiaries had higher drug
                          utilization than other MA-PD beneficiaries on average, SNP and other
                          MA-PD beneficiaries were similarly exposed to potentially inappropriate
                          drug pairs. At higher levels of drug utilization, SNP beneficiaries were
                          less likely to be exposed to a potentially inappropriate drug pair than
                          other MA-PD beneficiaries.

                          Regardless of whether beneficiaries were enrolled in a SNP or other
                          MA-PD, the type and severity of their potentially inappropriate drug
                          pairs were similar. Although most of the potential drug-drug
                          interactions were of moderate risk, 17 percent posed severe or serious
                          risk. Thus, in some cases beneficiaries may have been needlessly
                          exposed to serious risk, with some potentially leading to an ADE.
                          Therefore we make the following recommendation:
                          CMS Should Help SNPs and Other MA-PDs Provide Physicians and
                          Pharmacists the Information They Need To Prevent Inappropriate Drug Pairs
                          Leading to ADEs
                          For SNP and other MA-PD beneficiaries, 66 percent of potentially
                          inappropriate drug pairs involved drugs that were prescribed by the
                          same physician and filled by the same pharmacy. Although some of the
                          potentially inappropriate drug pairs could have been intentionally
                          prescribed because medical professionals judged that the benefits
                          outweighed the risks, others could have been errors. Thus, if physicians
                          and pharmacists had been given the right information, some of these
                          potentially inappropriate drug pairs could have been avoided.

                          CMS should encourage plans to fully implement e-prescribing programs
                          as one approach with the potential to help physicians and pharmacists
                          screen for and prevent ADEs. E-prescribing can improve
                          communication about beneficiaries’ medication histories, thus providing
                          the information necessary to prevent ADEs. Standards for e-prescribing
                          under Part D include a standard for allowing physicians, pharmacists,
                          and Part D plans (which include SNPs and other MA-PDs) to
                          communicate about beneficiaries’ medication histories, including
                          information that may help identify ADEs.
                          In addition, CMS should ask FDA, as part of its Sentinel Initiative, to
                          develop a list of drug combinations that are likely to be involved in
     OEI-05-07-00490      C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                          PLAN BENEFICIARIES                                                                                                                                     20
R   E C O        M M E N D A T                           I O N


                      severe or serious ADEs for the Medicare population. Once FDA has
                      compiled this list, CMS should distribute this targeted list of drug
                      combinations to SNPs and other MA-PDs to help screen for potentially
                      inappropriate drug pairs. As previously mentioned, one study found
                      that concurrent drug utilization reviews may be flagging so many
                      interactions that pharmacists find them more troublesome than helpful.
                      A targeted list of potentially inappropriate drug pairs most likely to be
                      involved in severe or serious ADEs could help SNPs and other MA-PDs
                      target specific drugs and drug combinations to prevent ADEs.

                      This list could also help SNPs and other MA-PDs better monitor
                      beneficiaries at risk for an ADE. To this end, CMS could encourage
                      plans to expand eligibility for MTM services to beneficiaries filling
                      prescriptions for drugs on the list of drug combinations likely to be
                      involved in severe or serious ADEs.

                      Obtaining the information needed to prevent ADEs is a necessary first
                      step, but it may not be sufficient. As mentioned earlier, providers can
                      be overwhelmed by the amount of information they receive, rendering
                      the information useless. To overcome this, CMS should encourage plans
                      to provide tools to assist physicians and pharmacists in appropriately
                      analyzing and using the information they receive. CMS could help
                      plans provide educational material and/or training to physicians for
                      identifying ADEs.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS concurred with our recommendation to help SNPs and other
                      MA-PDs provide physicians and pharmacists the information they need
                      to prevent inappropriate drug pairs that could lead to ADEs. CMS
                      noted that Part D sponsors are currently required to maintain systems
                      to monitor drug utilization, including the use of potentially
                      inappropriate drug pairs.

                      In addition, CMS stated that it supports a number of efforts aimed at
                      preventing inappropriate drug pairs that could lead to ADEs. In
                      particular, CMS cited efforts to establish e-prescribing programs in
                      Part D that provide prescription information and medication history to
                      physicians and pharmacies. CMS is also collaborating with FDA on the
                      Sentinel Project, which is designed to augment postmarketing
                      surveillance of approved medical products to improve information on

    OEI-05-07-00490   C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                      PLAN BENEFICIARIES                                                                                                                                     21
R   E C O        M M E N D A T                           I O N


                      potential risks and drug-drug interactions. Finally, CMS is evaluating
                      MTM best practices to assist MTM programs in meeting their statutory
                      goal of optimizing therapeutic outcomes through improved use of Part D
                      medications and reducing risk of adverse events.

                      However, CMS expressed concern about our use of the First Databank
                      drug product information database to identify potentially inappropriate
                      drug pairs. CMS stated that First Databank algorithms have not been
                      specifically validated for use in the Medicare population. Although this
                      may be true, First DataBank is widely used by pharmacists,
                      researchers, and health care plans, including the Department of
                      Veterans Affairs, State Medicaid programs, and Part D sponsors, to
                      identify inappropriate drug pairs.

                      CMS suggested that any assessment of inappropriate drug pairs rely on
                      information from FDA because there is no commercially available
                      software that has been validated for this use in the Medicare
                      population. We did not rely on information from FDA because FDA
                      does not maintain drug information on potential risks and interactions
                      in a format that would allow for a systematic assessment. Further,
                      FDA has noted that there are barriers to inclusion of the elderly in
                      clinical trials, leading us to believe that currently no complete and
                      validated source of information specifically related to the Medicare
                      population exists. 50 Perhaps FDA’s Sentinel Project will help fill this
                      gap.

                      For the full text of CMS’s comments, see Appendix D.




                          50 Michelle Meadows, “Medication Use and Older Adults.” FDA Consumer Magazine,
                      July-August 2006. Available online at
                      http://www.fda.gov/fdac/features/2006/406_olderadults.html. Accessed on November 14,
                      2008.



    OEI-05-07-00490   C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                      PLAN BENEFICIARIES                                                                                                                                     22
Δ   A P P E N D I X ~ A

                  Detailed Methodology
                  This study analyzes Prescription Drug Event (PDE) data for Special
                  Needs Plans (SNP) and other Medicare Advantage Prescription Drug
                  plans (MA-PD). We did not analyze stand-alone prescription drug
                  plans.
                  Data Sources
                  We used three data sources to conduct this study: (1) 2006 PDE data,
                  (2) August 2007 First DataBank drug product information data, and
                  (3) 2006 Centers for Medicare & Medicaid Services (CMS) plan-level
                  descriptive data.

                  CMS requires plans providing Part D drug coverage to submit PDE data
                  for payment purposes. Each drug event included in these data
                  represents the dispensing of a drug or medical supply for the injection of
                  insulin. These data contain the beneficiary’s identification number, the
                  Food and Drug Administration’s National Drug Code (NDC), 51 the date
                  of service, the number of days that the drug is supplied, the drug’s costs,
                  the prescribing physician, and the pharmacy where the prescription was
                  filled. Our analysis included final action PDE claims submitted by
                  SNPs and other MA-PDs for 2006. 52
                  First DataBank is a database containing drug product information, such
                  as drug name and therapeutic class, for each NDC. The August 2007
                  First DataBank data contained information on all drugs covered by
                  Part D in 2006, but with more up-to-date drug information than prior
                  versions of the First DataBank data.

                  First DataBank also includes a Duplicate Therapy Module and a
                  Drug-Drug Interaction Module. The Duplicate Therapy Module
                  provides information on whether two drugs from the same therapeutic
                  class, when taken simultaneously, increase the risk of toxicity. The
                  Drug-Drug Interaction Module identifies drug-drug interactions and
                  their severity level.




                      51 An NDC is a three-part universal identifier that specifies the drug manufacturer’s
                  name, the drug form and strength, and the package size.
                      52 Final action claims are those CMS uses to reconcile payments to plans. A PDE record
                  is submitted each time a beneficiary fills a prescription covered under Part D. The PDE
                  records may be amended or deleted up to 6 months after the end of the payment year. After
                  that point, CMS considers them to be final action claims.



OEI-05-07-00490   C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                  PLAN BENEFICIARIES                                                                                                                                     23
A   P   P E N D       I X             A


                      CMS publishes comprehensive plan-level data on all Part D plans that
                      include contract and plan benefit package numbers, organization
                      names, enrollment, and whether a plan is a SNP.
                      Data Analysis
                      The 2006 PDE data for SNPs and other MA-PDs include 6.4 million
                      beneficiaries with 187 million prescriptions from 1,879 plans. We
                      removed 137,000 prescriptions that were listed as partial fills because
                      they create the possibility of misstating drug utilization, costs, and
                      therapeutic duplications and drug-drug interactions. This removed
                      from our analysis 1,134 beneficiaries who only partially filled
                      prescriptions.
                      Calculating prescription drug utilization and costs. We analyzed cost and
                      utilization separately for each beneficiary and for each plan through
                      which he or she filled a prescription. We then aggregated this
                      information to represent the totals for SNP beneficiaries and other
                      MA-PD beneficiaries.

                      We counted prescriptions and costs according to the plan that paid for
                      each prescription. To reflect utilization and costs, we used a weighted
                      enrollment to compensate for beneficiaries who were enrolled in
                      multiple plans during 2006. About 400,000 of the 6.4 million
                      beneficiaries filled prescriptions from more than one plan. Of these,
                      100,000 filled prescriptions from both a SNP and another MA-PD.

                      We calculated weighted enrollment using prescription fill dates as a
                      proxy for days of enrollment in plans. Beneficiaries with two plans were
                      considered to be enrolled in Plan A from January 1 until midway
                      between their last prescription in Plan A and their first prescription in
                      Plan B. We calculated enrollment in Plan B from that midpoint until
                      December 31. Enrollment for beneficiaries with more than two plans
                      was calculated similarly using the first and last prescription fill dates
                      for each plan.

                      To be conservative, we assumed a full year of enrollment when
                      weighting beneficiaries for our analysis. Assuming a full year of
                      enrollment for all beneficiaries resulted in a larger enrollment figure
                      than assuming partial-year enrollment, which led to lower, more
                      conservative estimates of average utilization and cost.

                      If a beneficiary was enrolled in multiple SNPs, enrollment weights for
                      these plans were added together to form the beneficiary’s SNP
                      enrollment weight. Enrollment weights for other MA-PDs were

    OEI-05-07-00490   C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                      PLAN BENEFICIARIES                                                                                                                                     24
A   P   P E N D       I X             A


                      similarly added together to form the beneficiary’s other MA-PD
                      enrollment weights. The weights for each beneficiary equal one when
                      summed.

                      The weighting of beneficiaries resulted in a weighted enrollment of
                      634,000 for SNPs and 5.8 million for other MA-PDs. We used these
                      weighted enrollment figures to calculate average drug utilization and
                      cost.

                      Assessing the difference in SNP beneficiaries’ average annual prescription
                      drug cost compared to that of other MA-PD beneficiaries. To determine
                      potential explanations for differences between the average annual
                      prescription drug cost per SNP beneficiary and that of other MA-PD
                      beneficiaries, we analyzed prescription drug utilization and cost factors
                      that might affect overall cost.

                      To analyze prescription drug utilization, we compared the number of
                      prescriptions filled by SNP beneficiaries to the prescriptions filled by
                      other MA-PD beneficiaries.

                      To analyze differences in cost, we compared the drug mix for SNP and
                      other MA-PD beneficiaries to explore whether the difference in overall
                      cost was related to SNP beneficiaries requiring more costly types of
                      drugs. To do this, we compared the 40 drugs most dispensed to SNP
                      beneficiaries to the 40 drugs most dispensed to other MA-PD
                      beneficiaries. These drugs accounted for 46 percent of SNP
                      beneficiaries’ drug utilization and 56 percent of other MA-PD
                      beneficiaries’ drug utilization.
                      To determine the cost of the drugs that differed between the two lists of
                      most frequently dispensed drugs, we calculated an overall average
                      prescription cost per drug. This was used as a proxy for the
                      market-value of the drug. The overall average prescription drug cost
                      was calculated by totaling the amount paid by both SNPs and other
                      MA-PDs for each drug and dividing this by total utilization.

                      We also determined whether SNP and other MA-PD beneficiaries
                      utilized 30- and 90-day prescriptions differently, given that 90-day
                      prescriptions are typically less expensive. We defined a 30-day
                      prescription as any prescription with days of supply less than or equal
                      to 44 days. We defined a 90-day prescription as any prescription with
                      days of supply greater than 74 days.



    OEI-05-07-00490   C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                      PLAN BENEFICIARIES                                                                                                                                     25
A   P   P E N D       I X             A


                      Finally, to assess drug prices paid by SNPs and other MA-PDs for the
                      same drug, we compared the average prescription costs paid by plans
                      for each drug. We did this for the 40 drugs most dispensed to SNP
                      beneficiaries. We compared the prices SNPs paid for these top 40 drugs
                      to the prices MA-PDs paid for the same drugs. We repeated these
                      calculations for 30-day prescriptions and 90-day prescriptions,
                      normalized to 30-day prescription costs.

                      Calculating potential therapeutic duplications and drug-drug interactions.
                      For our analysis of potential therapeutic duplications and drug-drug
                      interactions, we did not include beneficiaries who filled prescriptions
                      under more than one plan. We did this to avoid counting potential
                      therapeutic duplications and drug-drug interactions involving drugs
                      from two different plans.

                      Beneficiaries who switch plans might also switch their physician or
                      pharmacy to accommodate their new plan’s network. A new plan,
                      pharmacy benefit management organization, pharmacy, or physician
                      might not have medication histories for these beneficiaries. A greater
                      number of potential therapeutic duplications and drug-drug interactions
                      may result if a new physician is not aware of drugs a beneficiary is
                      taking. Thus, the prevalence of potential therapeutic duplications and
                      drug-drug interactions in this population is not comparable to the vast
                      majority of beneficiaries who were enrolled in a single plan.

                      Excluding these beneficiaries left 534,000 SNP beneficiaries and
                      5.5 million other MA-PD beneficiaries in our analysis of potential
                      therapeutic duplications and drug-drug interactions. We did not weight
                      enrollment for our analysis of potential therapeutic duplications and
                      drug-drug interactions because the beneficiaries in this analysis were
                      enrolled only in one plan.

                      We counted a potential therapeutic duplication when the following
                      three criteria were met for a beneficiary: (1) two drugs were from the
                      same therapeutic class, (2) the therapeutic class did not allow
                      duplications according to First DataBank, and (3) the two drugs’ supply
                      periods overlapped for at least 25 percent of the shortest of the supply
                      periods. Because plans often limit beneficiaries’ ability to refill a
                      prescription until the last 25 percent of the supply period, we used this
                      criterion to reduce the possibility of including early refills in our count
                      of potential therapeutic duplications.



    OEI-05-07-00490   C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                      PLAN BENEFICIARIES                                                                                                                                     26
A   P   P E N D       I X             A


                      We counted a potential drug-drug interaction when the following
                      two criteria were met for a beneficiary: (1) two drugs were flagged by
                      First DataBank as interacting when taken simultaneously, and (2) the
                      two drugs had supply periods that overlapped for at least 2 days. We
                      used 2 days as the overlap period to avoid cases in which one
                      prescription ended and the other began on the same day. We did not
                      use the overlap period used for therapeutic duplications because there is
                      not the same risk of inappropriately counting an early refill as a
                      potential drug-drug interaction.

                      To identify prescriptions that appeared to represent a drug change in
                      response to the detection of a drug-drug interaction, we looked for
                      potential therapeutic duplications that: (1) occurred within the fill
                      period of a potential drug-drug interaction, (2) involved one drug in
                      common with the potential drug-drug interaction, and (3) only occurred
                      once. Further, we only considered cases in which the potential
                      drug-drug interaction did not occur again after the therapeutic
                      duplication. Over 190,000 therapeutic duplications appear to have been
                      changes in medications to avoid potential drug-drug interactions. They
                      represent 1 percent of all potential therapeutic duplications. Thus, the
                      data contain some potential therapeutic duplications that may have
                      been the result of a change in medication because of the detection of a
                      drug-drug interaction.

                      Assessing potential therapeutic duplications and drug-drug interactions.
                      We analyzed exposure to potential therapeutic duplications and
                      drug-drug interactions for each beneficiary. We then aggregated this
                      information to represent totals for SNP beneficiaries and other MA-PD
                      beneficiaries.

                      We calculated the percentage of beneficiaries who had at least one
                      potential therapeutic duplication or drug-drug interaction for different
                      ranges in the number of prescriptions. We divided beneficiaries into
                      these ranges based on their number of prescriptions. For each range of
                      prescription drug utilization, we counted the number of beneficiaries
                      with at least one potential therapeutic duplication or drug-drug
                      interaction and divided it by the total number of beneficiaries in that
                      range.

                      To determine the average number of potential therapeutic duplications
                      and drug-drug interactions among beneficiaries who were exposed to a
                      potential therapeutic duplication or drug-drug interaction, we summed
                      the number of potential therapeutic duplications and drug-drug
    OEI-05-07-00490   C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                      PLAN BENEFICIARIES                                                                                                                                     27
A   P   P E N D       I X             A


                      interactions for all beneficiaries and divided this by the number of
                      beneficiaries exposed to a potential therapeutic duplication or drug-drug
                      interaction. For potential drug-drug interactions, we repeated this
                      calculation for each severity level defined by First DataBank.

                      To find the top 20 drugs involved in severe and serious potential
                      drug-drug interactions, we counted each occurrence of a unique drug in
                      a severe and serious potential drug-drug interaction and found the
                      drugs that were most frequently involved.

                      To calculate the percentage of recurring potential therapeutic
                      duplications and drug-drug interactions, we found the instances in
                      which a beneficiary was exposed to potential therapeutic duplications
                      and drug-drug interactions involving the same pair of drugs more than
                      once during 2006. We divided the number of recurring drug pairs by
                      the total number of potential therapeutic duplications and drug-drug
                      interactions to find the percentage that recurred. Thus, if potential
                      therapeutic duplications and drug-drug interactions from a particular
                      drug combination occurred every month of the year, we counted that as
                      12 recurring potential therapeutic duplications and drug-drug
                      interactions.

                      To calculate the percentage of unique drug pairs involved in recurring
                      potential therapeutic duplications and drug-drug interactions, we first
                      totaled the number of unique drug pairs involved in potential
                      therapeutic duplications and drug-drug interactions. We then divided
                      this by the total number of recurring potential therapeutic duplications
                      and drug-drug interactions. We repeated this calculation for severe and
                      serious potential drug-drug interactions.

                      To determine how often two drugs involved in potential therapeutic
                      duplications and drug-drug interactions were prescribed by the same
                      physician or filled by the same pharmacy, we used the prescriber and
                      provider identification numbers, respectively, provided in the PDE data.
                      We then used the date of service to determine whether potential
                      therapeutic duplications and drug-drug interactions were filled by the
                      same pharmacy on the same day.




    OEI-05-07-00490   C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                      PLAN BENEFICIARIES                                                                                                                                     28
                Δ            A P P E N D I X ~ B

                                                Differences in Cost for the Most Frequently Dispensed Prescription
                                                Drugs in Special Needs Plans


   Table 2: Average Cost per 30-day, 90-day, and All Prescriptions for the 40 Drugs Most Frequently
   Dispensed to Special Needs Plan and Other Medicare Advantage Prescription Drug Plan* Beneficiaries
                                                                                                             Average Cost per 90-Day                                     Average Cost per
                                                          Average Cost per 30-Day                        Prescription Normalized to                             Prescription Normalized to
                                                                   Prescription                                30-Day Drug Supply                                     30-Day Drug Supply


   Drug Name                                                SNPs          Other MA-PDs                            SNPs             Other MA-PDs                          SNPs           Other MA-PDs
   Levothyroxine Sodium                                    $8.31                       $8.19                       $6.60                       $6.92                      $8.22                     $7.59

   Furosemide                                              $2.46                       $2.19                       $2.23                       $2.14                      $2.45                     $2.15

   Atorvastatin Calcium                                  $89.40                      $86.50                      $85.52                      $81.40                     $89.18                    $84.12

   Lisinopril                                            $10.10                        $9.59                     $11.59                        $8.49                    $10.16                      $9.00

   Metformin Hcl                                         $16.42                      $15.26                      $19.40                      $17.74                     $16.50                    $16.14

   Atenolol                                                $3.71                       $3.21                       $4.41                       $2.91                      $3.73                     $3.03

   Hydrochlorothiazide                                     $2.58                       $2.58                       $2.26                       $1.82                      $2.56                     $2.14

   Hydrocodone Bit/Acetaminophen                           $9.96                     $10.13                      $14.57                      $13.55                       $9.98                   $10.25

   Amlodipine Besylate                                   $54.34                      $53.24                      $51.97                      $50.53                     $54.22                    $52.41

   Metoprolol Tartrate                                     $3.93                       $3.44                       $4.17                       $4.69                      $3.93                     $3.89

   Ranitidine Hcl                                          $9.95                       $8.61                     $13.33                        $9.74                    $10.01                      $8.89

   Potassium Chloride                                    $11.49                        $9.45                       $8.69                       $8.13                    $11.36                      $8.94

   Clopidogrel Bisulfate                               $118.21                     $115.33                    $105.78                      $108.20                    $117.66                   $113.04

   Glipizide                                             $11.72                      $11.12                      $11.08                        $9.05                    $11.68                    $10.29

   Warfarin Sodium                                       $11.88                      $14.61                      $12.65                      $12.82                     $11.90                    $14.02

   Enalapril Maleate                                     $10.20                        $8.94                     $11.56                      $11.40                     $10.23                      $9.61

   Gabapentin                                            $53.03                      $45.94                      $54.34                      $54.57                     $52.99                    $48.10

   Lovastatin                                            $34.18                      $27.48                      $30.91                      $22.00                     $33.83                    $24.12

   Simvastatin                                         $106.64                     $106.49                       $97.47                      $85.05                   $105.85                     $95.87

   Alendronate Sodium                                    $71.85                      $70.35                      $67.57                      $60.67                     $71.63                    $65.30

 Source: Office of Inspector General analysis of 2006 Prescription Drug Event data, 2008.

*Special Needs Plan = SNP

 Medicare Advantage Prescription Drug Plan = MA-PD




                    OEI-05-07-00490            C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                                               PLAN BENEFICIARIES                                                                                                                                     29
               A    P    P E N D             I X              B




  Table 2: Average Cost per 30-day, 90-day, and All Prescriptions for the 40 Drugs Most Frequently
  Dispensed to Special Needs Plan and Other Medicare Advantage Prescription Drug Plan Beneficiaries,
  continued
                                                                                                            Average Cost per 90-Day                                     Average Cost per
                                                         Average Cost per 30-Day                        Prescription Normalized to                             Prescription Normalized to
                                                                  Prescription                                30-Day Drug Supply                                     30-Day Drug Supply


  Drug Name                                                SNPs          Other MA-PDs                            SNPs             Other MA-PDs                          SNPs           Other MA-PDs
  Sertraline Hcl                                        $79.70                      $74.54                      $69.40                      $69.12                     $79.41                    $72.87

  Diltiazem Hcl                                         $34.54                      $34.75                      $34.75                      $31.52                     $34.53                    $33.46

  Digoxin                                                 $4.30                       $4.33                       $3.73                       $4.03                      $4.28                     $4.19

  Quetiapine Fumarate                                 $201.75                     $149.47                     $194.69                     $146.53                    $201.63                   $148.47

  Albuterol                                             $12.86                      $11.33                      $15.72                      $12.96                     $12.87                    $11.34

  Pantoprazole Sodium                                 $110.13                     $109.18                    $104.67                      $104.33                    $109.97                   $107.89

  Isosorbide Mononitrate                                $10.46                        $9.95                     $12.68                      $12.35                     $10.53                    $10.63

  Trazodone Hcl                                           $5.13                       $4.61                       $7.93                       $5.23                      $5.18                     $4.75

  Omeprazole                                            $53.50                      $39.65                      $44.49                      $31.06                     $53.14                    $34.88

  Risperidone                                         $210.95                     $166.17                    $227.87                      $180.75                    $211.03                   $167.49

  Metoprolol Succinate                                  $32.18                      $31.51                      $30.14                      $29.39                     $31.99                    $30.70

  Rosiglitazone Maleate                               $125.14                     $123.57                    $120.70                      $118.62                    $124.90                   $122.04

  Oxycodone Hcl/Acetaminophen                           $19.15                      $27.26                      $28.57                      $33.45                     $19.16                    $27.38

  Fluoxetine Hcl                                        $16.92                      $13.95                      $20.34                      $12.15                     $16.99                    $12.95

  Valsartan                                             $58.23                      $58.76                      $56.17                      $54.49                     $58.15                    $57.26

  Divalproex Sodium                                   $136.67                     $113.90                    $149.34                      $126.47                    $136.79                   $115.82

  Paroxetine Hcl                                        $41.69                      $35.92                      $40.09                      $31.34                     $41.62                    $34.14

  Glyburide                                             $11.95                      $12.09                      $13.55                      $12.83                     $11.98                    $12.32

  Ibuprofen                                               $4.04                       $3.99                       $5.99                       $5.53                      $4.06                     $4.21

  Nifedipine                                            $48.03                      $42.59                      $43.60                      $37.41                     $47.80                    $39.98

Source: Office of Inspector General analysis of 2006 Prescription Drug Event data, 2008.




                   OEI-05-07-00490            C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                                              PLAN BENEFICIARIES                                                                                                                                     30
Δ      A AP PP PE EN ND DI IX X~ ~C C

                             Drugs Most Frequently Involved in Severe and Serious Potential
                             Drug-Drug Interactions


      Table 3: The 20 Drugs Most Frequently Involved in Severe and Serious Potential
      Drug-Drug Interactions

      Severe                                                                                  Serious
                                                                       Number of                                                                                          Number of
                                     Primary                                                                                            Primary
                                                                           Severe                                                                                            Serious
                                     Condition                                                                                          Condition
                                                                      Interactions                                                                                       Interactions
      Drug Name                      Treated                                                  Drug Name                                 Treated
                                     Low Potassium
      Potassium Chloride                                                   144,778            Warfarin Sodium                           Blood Clots                        1,016,822
                                     Levels
                                     Overactive                                               Levothyroxine                             Low Thyroid
      Oxybutynin                                                             50,429                                                                                           385,271
                                     Bladder                                                  Sodium                                    Levels
                                     Overactive                                                                                         Low Potassium
      Tolterodine Tartrate                                                   42,813           Potassium Chloride                                                              363,921
                                     Bladder                                                                                            Levels
      Diphenoxylate                                                                                                                     High Blood
                                     Diarrhea                                12,608           Clonidine Hcl                                                                   346,506
      Hcl/Atropine Sulfate                                                                                                              Pressure
                                     Functional GI
      Dicyclomine Hcl                                                          9,792          Gemfibrozil                               High Cholesterol                      239,514
                                     Disorders
                                     Functional GI                                                                                      Bacterial
      Hyoscyamine Sulfate                                                      7,580          Ciprofloxacin Hcl                                                               197,558
                                     Disorders                                                                                          Infection
                                     Heart                                                                                              Heart
      Amiodarone Hcl                                                           6,291          Amiodarone Hcl                                                                  194,097
                                     Arrhythmias                                                                                        Arrhythmias
                                     Parkinson’s                                              Triamterene/                              Low Potassium
      Selegiline Hcl                                                           5,805                                                                                          150,336
                                     Disease                                                  Hydrochlorothiazide                       Levels
                                     Extrapyramidal                                                                                     Congestive
      Benztropine Mesylate                                                     5,308          Digoxin                                                                         144,990
                                     Symptoms                                                                                           Heart Failure
                                     Overactive                                               Fenofibrate
      Solifenacin Succinate                                                    4,492                                                    High Cholesterol                      144,374
                                     Bladder                                                  Nanocrystallized
      Darifenacin                    Overactive
                                                                               4,310          Tramadol Hcl                              Pain                                  141,729
      Hydrobromide                   Bladder
      Disopyramide                   Heart
                                                                               3,698          Atorvastatin Calcium                      High Cholesterol                      130,171
      Phosphate                      Arrhythmias
      Thioridazine Hcl               Schizophrenia                             2,722          Lovastatin                                High Cholesterol                      119,036
      Ketoconazole                   Fungal Infection                          2,366          Fluoxetine Hcl                            Depression                            115,576
                                     Bacterial                                                                                          High Blood
      Linezolid                                                                1,957          Atenolol                                                                        111,713
                                     Infection                                                                                          Pressure
                                     Bacterial                                                                                          High Blood
      Ciprofloxacin Hcl                                                        1,912          Metoprolol Tartrate                                                             104,352
                                     Infection                                                                                          Pressure
                                     Bacterial
      Azithromycin                                                             1,877          Sertraline Hcl                            Depression                            100,254
                                     Infection
                                                                                                                                        High Blood
      Trihexyphenidyl Hcl            Parkinsonism                              1,835          Spironolactone                                                                    98,114
                                                                                                                                        Pressure
      Fluoxetine Hcl                 Depression                                1,794          Allopurinol                               Gout                                    97,857
      Ketorolac                                                                                                                         Bacterial
                                     Pain                                      1,710          Levofloxacin                                                                      94,848
      Tromethamine                                                                                                                      Infections
    Source: Office of Inspector General analysis of 2006 PDE data, 2008.




OEI-05-07-00490              C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                             PLAN BENEFICIARIES                                                                                                                                     31
A P PAAEPPNPPD EEI NX
                    N DD ~I I XX A                       ~~           DD
Δ
Δ

        Agency Comments




   OEI-05-07-00490   C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                     PLAN BENEFICIARIES                                                                                                                                     32
A   P   P E N D       I X             ~           D




    OEI-05-07-00490   C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                      PLAN BENEFICIARIES                                                                                                                                     33
A   P   P E N D       I X             ~           D




    OEI-05-07-00490   C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                      PLAN BENEFICIARIES                                                                                                                                     34
A   P   P E N D       I X             ~           D




    OEI-05-07-00490   C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                      PLAN BENEFICIARIES                                                                                                                                     35
A   P   P E N D       I X             ~           D
Δ       A C
          P P
            K EN NO DW I L X E ~ D B G M E N T S



                      This report was prepared under the direction of Ann Maxwell, Regional
                      Inspector General for Evaluation and Inspections in the Chicago
                      regional office, and Thomas Komaniecki, Deputy Regional Inspector
                      General.

                      This report was led by Mark Stiglitz. Other principal Office of
                      Evaluation and Inspections staff from the Chicago regional office who
                      contributed include Meghan Kearns and Mara Werner; central office
                      staff who contributed include Doris Jackson, Rita Wurm, and Robert
                      Gibbons.




    OEI-05-07-00490   C O M PA R I N G S P E C I A L N E E D S P L A N B E N E F I C I A R I E S   TO   O T H E R M E D I C A R E A D VA N TA G E P R E S C R I P T I O N D R U G
                      PLAN BENEFICIARIES                                                                                                                                     36
